HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Pennsylvania Blue Shield, (A-07-93-00712)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Pennsylvania Blue
Shield," (A-07-93-00712)
May 6, 1994
Complete Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Pennsylvania Blue Shield (PBS) omitted
Medicare cost centers and misidentified Medicare participants in its calculation
of the 1981 Medicare asset fraction. As a result pension assets of the Medicare
segment were understated by $616,636 as of January 1, 1986. The PBS' update
of the Medicare segment assets to January 1, 1992 understated the assets by
an additional $412,751 due to the prior error. We recommended that PBS increase
the January 1, 1992 asset base of the Medicare segment by $1,029,387.